No. ______
In the

Supreme Court of the United States
__________________

GARY S. WILLIKY,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION,
Respondent.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Bryan C. Shartle
Counsel of Record
SESSIONS, FISHMAN, NATHAN
& ISRAEL, L.L.C.
3850 North Causeway Blvd., Suite 200
Metairie, Louisiana 70002-7227
Telephone: 504-828-3700
Facsimile: 504-828-3737
bshartle@sessions.legal
Counsel for Petitioner Gary Williky

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Did the Seventh Circuit Court of Appeals err in
determining that the Trial Court did not abuse its
discretion by awarding 2x civil penalties against
Williky, a cooperating whistleblower who provided
information used to help obtain guilty pleas and/or
guilty verdicts against six other defendants?

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the
caption.
RULE 14.1(B)(III) STATEMENT
The proceedings in federal trial and appellate courts
identified below are directly related to the abovecaptioned case in this Court.
Securities and Exchange Commission v. Williky,
Cause No. 1:15-cv-0357-WTL-MJD, 2018 WL
3729137 (S.D. Ind.). The Southern District of
Indiana entered judgment against Petitioner in this
matter on August 3, 2018.
Securities and Exchange Commission v. Williky,
Cause No. 1:15-cv-0357-WTL-MJD, 2019 WL
162578 (S.D. Ind.). The Southern District of Indiana
denied Petitioner’s request for reconsideration in
this matter on January 9, 2019.
Securities and Exchange Commission v. Williky, 942
F.3d 389 (7th Cir.). The Seventh Circuit denied
Petitioner’s petition for appeal on November 8,
2019.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . ii
RULE 14.1(B)(III) STATEMENT . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED . . . . . . . . . 1
INTRODUCTION AND
STATEMENT OF THE CASE . . . . . . . . . . . . . . . 2
A. Williky is approached to manage public relations
and debt reduction of Imperial Petroleum Inc. . . 2
B. Furando Begins His Campaign of Terror, forcing
Williky out. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
C. Williky learns the true nature of the fraud. . . . . 7
D. Williky becomes a Whistleblower and
Cooperator. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
E. Specific examples that Williky’s evidence was
valuable and was used by the governmental
agencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
i. The Furando/Ryer Tape was used in the
indictments. . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iv
ii. Evidence produced by Williky was used in
the Wilson Indictment and Trial and helped
result in guilty pleas for six other
Defendants. . . . . . . . . . . . . . . . . . . . . . . . . . . 15
F. The SEC Sues Williky. . . . . . . . . . . . . . . . . . . . . 16
STATEMENT OF ARGUMENT . . . . . . . . . . . . . . . 21
THE SEVENTH CIRCUIT’S OPINION . . . . . . . . . 31
REASONS FOR GRANTING THE PETITION . . . 31
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(November 8, 2019). . . . . . . . . . . . App. 1
Appendix B Entry on Motion for Reconsideration
in the United States District Court
Southern District of Indiana,
Indianapolis Division
(January 9, 2019) . . . . . . . . . . . . App. 12
Appendix C Entry on Pending Motions and
Judgment in the United States
District Court Southern District of
Indiana, Indianapolis Division
(August 3, 2018) . . . . . . . . . . . . . App. 17
Appendix D 15 U.S.C. § 78u-1 . . . . . . . . . . . . App. 46

v
TABLE OF AUTHORITIES
CASES
S.E.C. v. Alanar,
Civ. A. No. 2008 U.S. Dist. LEXIS 37241 (S.D.
Ind. May 6, 2008) . . . . . . . . . . . . . . . . . . . . . . . . 26
S.E.C. v. Berrettini,
218 F. Supp. 3d 754 (N.D. Ill. 2016) . . . . . . . . . 25
S.E.C. v. Bluestein,
No. 09-13809, 2013 WL 1759091 (E.D. Mich.
March 7, 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . 24
S.E.C. v. Conradt,
696 F. App’x 46 (2d Cir. 2017) . . . . . . . . . . . . . . 26
S.E.C. v. Custable,
1996 WL 745372 (N.D. Ill. Dec. 26, 1996),
aff’d, 132 F.3d 36 (7th Cir. 1997) . . . . . . . . . . . . 31
S.E.C. v. Esposito,
Case No. 8:08-cv-494-T-26EAJ, 2011 WL
13186000 (M.D. Fla. June 24, 2011) . . . . . . . . . 25
S.E.C. v. Ferrero,
No. IP 91 271 C, 1993 WL 625964 (S.D. Ind.
Nov. 15, 1993), aff’d sub nom. S.E.C. v. Maio, 51
F.3d 623 (7th Cir. 1995) . . . . . . . . . . . . . . . . 26, 27
S.E.C. v. Gunn,
2010 WL 3359465 (N. D. Tex. Aug. 25, 2010) . 25
S.E.C. v. Happ,
392 F.3d 12 (1st Cir. 2004) . . . . . . . . . . . . . . . . . 21

vi
S.E.C. v. Hayter,
96 F. Supp. 3d 1299 (M.D. Fla. 2015) . . . . . . . . 30
S.E.C. v. Johnson,
174 F. App’x 111 (3d Cir. 2006) . . . . . . . . . . . . . 25
S.E.C. v. Koenig,
557 F.3d 736 (7th Cir. 2009). . . . . . . . . . . . . . . . 25
S.E.C. v. Lipson,
278 F.3d 656 (7th Cir. 2002). . . . . . . . . . . . . . . . 26
S.E.C. v. Maio,
51 F.3d 623 (7th Cir. 1995). . . . . . . . . . . . . . . . . 26
S.E.C. v. Opulentica, LLC,
479 F. Supp. 2d 319 (S.D.N.Y. 2007) . . . 27, 28, 29
S.E.C. v. Rajaratnam,
918 F.3d 36 (2d Cir. 2019) . . . . . . . . . . . . . . . . . 21
S.E.C. v. Sample,
Civ. A. No. 3:14-CV-1218-B, 2017 WL 5569873
(N.D. Tex. Nov. 11, 2017) . . . . . . . . . . . . . . . . . 25
S.E.C. v. Sargent,
329 F.3d 34 (1st Cir. 2003) . . . . . . . . . . . . . . . . . 21
S.E.C. v. Softpoint, Inc.,
958 F. Supp. 846 (S.D.N.Y. 1997), aff’d, 159 F.3d
1348 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . . 26
S.E.C. v. Universal Express, Inc.,
646 F. Supp. 2d 552 (S.D.N.Y. 2009) . . . . . . . . . 25
S.E.C. v. Zenergy Int’l, Inc.,
Cause No. 13-CV-5511, 2016 WL 5080423 (N.D.
Ill. Sept. 20, 2016). . . . . . . . . . . . . . . . . . . . . 24, 31

vii
STATUTES
15 U.S.C. § 77t(d)(2). . . . . . . . . . . . . . . . . . . . . . . . . 24
15 U.S.C. § 78u(d)(3) . . . . . . . . . . . . . . . . . . . . . . . . 24
15 U.S.C. § 78-1(a)(2) . . . . . . . . . . . . . . . . . . . . . 25, 26
15 U.S.C. § 78u-1(a)(2) . . . . . . . . . . . . . . . . . . . . . 1, 31
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
Gary Williky respectfully petitions for a writ of
certiorari to review the judgement of the Unites States
Court of Appeals for the Seventh Circuit.
OPINIONS BELOW
The decision of the Seventh Circuit (App. 1-11) is
reported at 942 F.3d 389. The August 3, 2019 decision
of the District Court (App. 17-45) is unreported, but is
available at 2018 WL 3729137. The District Court’s
January 9, 2019 denial of reconsideration (App. 12-16)
is unreported, but is available at 2019 WL 162578.
JURISDICTION
The judgment of the court of appeals was entered on
November 8, 2019. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
15 U.S.C. § 78u-1(a)(2)
(a) Authority to impose civil penalties
(2) Amount of penalty for person who
committed violation
The amount of the penalty which may be
imposed on the person who committed such
violation shall be determined by the court in
light of the facts and circumstances, but shall
not exceed three times the profit gained or
loss avoided as a result of such unlawful
purchase, sale, or communication.
App. 46-53.

2
INTRODUCTION AND
STATEMENT OF THE CASE
Williky is an Arizona State University Liberal Arts
graduate who focused his time in high school and
college on obtaining (and holding for twenty-eight
years) the college’s shot put and discus records. After
obtaining his liberal arts degree in physical education,
Williky went on to work in a variety of jobs, including
dealing with credit management and consulting.
Williky, in person, is an affable, energized man who
loves talking about his kids, his grandkids, and
coaching kids in soccer, baseball, and track and field
events. He also serves as a committee member for a
public and private child-related and adult sports
organization.
A. Williky is approached to manage public
relations and debt reduction of Imperial
Petroleum Inc.
In late 2009, Williky was approached by Jeffrey
Wilson (“Wilson”), regarding a potential opportunity to
work in public relations and debt reduction for a
company in which Wilson was the CEO and board
chairman, Imperial Petroleum Inc. (“Imperial”). The
following year, on or about May 24, 2010, Imperial
purchased e-biofuels LLC (“e-biofuels”), which Williky
understood made and sold biofuels along with certain
related tax credits (“Renewable Identification Number”
or “RIN”) related to those fuels. Williky was impressed
with the knowledge and expertise of the e-biofuels
principals, Chad Ducey and Craig Ducey. Williky was
particularly impressed with Chad Ducey’s expertise in
the field as a graduate of the Rose-Hulman Institute of

3
Technology, a
engineering.

Forbes-listed

“top

college”

for

Although Williky knew nothing about the biodiesel
industry, he was excited for the opportunity to work in
the very popular green energy movement. In July 2011,
Imperial and Williky entered into a few verbal
contracts for debt reduction help plus two written ones.
Pursuant to the various contracts, Williky was hired to
help with public relations, to help Imperial settle
certain of its debts and outstanding liabilities, and to
work with the city of Sanger, Texas for purposes of
building a new Imperial plant in Texas. [Trial Court
Doc.1 48-2 and Doc. 48-3]. Williky received various
types of compensation for these contracts, including
stock for his public relations work, a monthly fee for his
work setting up the Sanger facility (plus a promised
management role) and a percentage of all funds saved
by Imperial if Williky was successful in debt reduction
strategies, plus reimbursement for expenses incurred
in the pursuit of any of the contract goals.
Williky visited the Imperial plant in Indiana on four
separate occasions: February 21, 2011, April 19, 2011,
May 9, 2011 and August 4, 2011. Each time Williky
visited the plant, it appeared to be running at full
steam. During these visits, he was shown
memorandums regarding the viability and validity of
the plant and the product as well as taped interviews
with the employees about their work at the plant. He

1

Based on the volume of the trial court record, it is not included in
the Appendix. It is available upon request. Further references to
a trial court filing will just be referred to by the Doc. Number.

4
also worked closely with city officials from Sanger
throughout the summer/fall of 2011 to negotiate city
concessions, leases and other related items. [Doc. 48-4].
Williky even planned a plant visit with the Sanger
officials for July 28, 2011. [Doc. 48-5]. The late July
plant visit was ultimately denied by Wilson. [Doc. 486].
As part of Williky’s “biofuels education,” on August
9, 2011, Wilson and the Ducey brothers showed him a
“highly confidential” memorandum analyzing one
aspect of the e-biofuels program and how it a strong
new trade secret process that complied with applicable
laws. [Doc. 48-7]. The memo was about the use of
“offspec methyl esters” and Williky was told that ebiofuels/Imperial had passed prior EPA certifications
and audits. Williky had no reason to doubt the memo or
the Ducey brothers’ superior knowledge of the highly
technical biofuels industry. At or around the same
time, Williky was provided with an “Independent
Third-Party Review of e-biofuels” by Dr. Jerry A.
Caskey, a professional chemical engineer, detailing
that the e-biofuels plant was a “fully operational plant
capable of producing a biodiesel product meeting
appropriate ASTM specifications.” [Doc. 48-8].
However, during late August 2011, Williky began
voicing suspicions that Imperial appeared to be
diverting biofuels to another company owned by a
pseudo-relative of the Duceys, Brian Carmichael
(“Carmichael”), and shorting a paying customer’s owed
prepaid delivery (little did Williky know at the time
what the actual fraud was and how deep it went).

5
Wilson told Williky to “give it a rest there is nothing
going on.” [Doc. 48-9].
On August 30, 2011, Wilson sent Williky a letter
threatening him with a breach of fiduciary claim and
termination if Williky continued to voice his concerns
about the possible biofuels diversion. [Doc. 48-10].
On September 2, 2011, Wilson requested that
Williky resign, presumably because of Williky’s voiced
suspicions that Imperial was diverting biofuels to
Carmichael at below-market price, and shorting a
paying customer’s owed prepaid delivery. At the time
of the requested resignation2, Wilson again threatened
Williky in more specific terms that going public or to
any governmental agency with his suspicions would
result in the shareholders filing a lawsuit against
Williky. Williky did not feel he could do anything about
his suspicions without hard evidence of their veracity
and thus tendered his resignation letter as demanded.
[Doc. 48-11].
Shortly thereafter, in October 2011, Wilson resigned
himself and his request that Williky resign was never
brought up again.
During the months of September – October 2011,
Williky continued to work with Imperial and others to
help finance the proposed new plant in Sanger, Texas.
Williky met with investors, city officials and potential
vendors to help facilitate the new plant.

2

The requested resignation was not to take effect until September
15, 2011, the end of the investment conference in New York City
related to the Sanger Plant.

6
B. Furando Begins His Campaign of Terror,
forcing Williky out.
In November 2011, Williky became concerned when
he started receiving subtle and not-so-subtle threats
from the Duceys’ co-conspirator, Joseph Furando
(“Furando”). At the time, Williky believed those threats
related to either his suggestion to the Imperial Board of
Directors that William Stratton (“Stratton”) be hired as
CEO or perhaps his voiced suspicions that Imperial was
diverting biofuels and the supplier relationship with
Furando’s company. Williky later learned that he was
not the only person to receive threats from Furando,
who is now serving time in prison.3
On or about November 10, 2011, Williky learned
about the threats Furando made against Stratton.
[Doc. 48-13]. Williky decided that, based on the
escalating threats against him from Furando and his
continued suspicion of malfeasance regarding the
potential biofuel diversion, he no longer wanted to be
part of Imperial and began negotiating his severance
package. The full description of Furando threats
3

https://www.ibj.com/articles/52622-prosecutors-man-in-biodieselscam-made-death-threats. Furando threatened to “start with
Williky’s sister and that he knew where she lived.” [Doc. 48-30].
Furando repeatedly told Williky and others in front of Williky that
he was “connected” to the mafia and that his father had actually
been part of the mafia. [Doc. 48-30]. Later, Williky learned that
Furando had held a gun to an employee’s head when the employee
displeased Furando. [Doc. 48-30]. See also August 24, 2012 Email
from Williky’s Qui Tam attorney mentioning Furando’s threats to
stab Tim Jones, an employee. [Doc. 48-29]. See also lawsuit filed by
Joe Stratton detailing Furando’s aggressive threats to oust him as
CEO. [Doc. 48-28].

7
against Williky is detailed in Williky’s Qui Tam
Affidavit. [Doc. 48-30].
As part of his negotiations, Williky provided
Imperial with his services invoice and began
negotiating his severance. [Doc. 48-14].
During the negotiations for his severance, Williky
still believed the extent of the misconduct was that the
Duceys were skimming off the top by selling biofuels at
a discounted price to Carmichael. Wilson continued to
lead Williky down this path and act as though the need
for secrecy was due to the “proprietary nature” of the
biofuel making process. See, November 14, 2011 AIM
conversation between Wilson and Williky wherein
Wilson says, “Whether the Duceys were skimming is
irrelevant, they are all worried about attention and
press releases and people trying to duplicate their
model.” [Doc. 48-15].
On December 2, 2011, Williky agreed to a severance
and nondisclosure agreement to be paid for services
rendered, which were invoiced and negotiated.
[Doc. 48-16].
C. Williky learns the true nature of the fraud.
During his severance negotiations, and still
believing that the Duceys were skimming, on or about
November 17, 2011, Williky suggested to John Ryer
(“Ryer”) who had just become the CEO, that he tape
any conversations with Furando in order to discover
whether Williky’s skimming concerns were true.
On or about November 17, 2011, Ryer did tape a
conversation with Furando, wherein Furando confessed

8
to selling fuel, not feedstock, to the company. However,
based upon the “off-spec methyl ester” memo [Doc. 487] and the Third Party Review [Doc. 48-8], it was still
unclear to Williky whether processing fuel was
improper.
Williky received the recording on or around
November 21, 2011, and requested that his assistant
make a transcript so he could review it.
Williky received the transcript of the taped
conversation between Ryer and Furando on or about
January 23, 2012, and at that time realized the fraud
went much deeper than what he had suspected.
Through the transcript, Williky learned the truth about
the Ducey’s subterfuge and realized that Imperial’s
entire biodiesel business might be a sham. [Doc. 48-17].
D. Williky becomes
Cooperator.

a

Whistleblower

and

On or about December 27, 2011, prior to his receipt
of the Furando transcript, Williky anonymously
contacted the EPA to try to talk to someone about the
potential skimming by the Duceys and to determine
whether that was a violation of EPA regulations that
he should report. He was never able to talk to anyone
who could give him an answer, although he was
transferred to a number of agents. Williky called
anonymously as he was scared about potential
repercussions from Furando.
Upon information and belief, at least partially as a
result of Williky’s call, on or about February 2, 2012,
the SEC opened an investigation of Imperial, In the
Matter of Imperial Petroleum, Inc. (C-07912).

9
When Williky received the transcript of the taped
conversation between Ryer and Furando on January
23, 2012, his focus shifted to the potentially larger
fraud. However, based on the memorandum [Doc. 48-4]
and independent third-party reports [Doc. 48-9] he had
seen, Williky was still not sure if he understood
whether the Duceys’ actions were a fraud or not.
On January 26, 2012, three days after receiving the
transcript, Williky contacted whistleblower counsel
[Doc. 48-18] with substantial expertise in
environmental crimes in order to see if he should
contact the EPA again with his new knowledge. Williky
ultimately hired Bruce Pasfield of Alston & Bird, an
experienced whistleblower counsel who had extensive
experience with environmental crimes at the
Department of Justice. [Doc. 48-19].
On March 13, 2012, Williky reported Imperial’s
potential violations to multiple government agencies
such as the EPA, FBI, IRS and SEC through a proffer.
[Doc. 48-20].
On April 6, 2012, Williky consented to record
conversations between him and the fraudsters.
[Doc. 48-18; Doc. 48-21].
On April 24, 2012, Williky Applied for an Award for
Original Information with the SEC’s Whistleblower’s
office. [Doc. 48-23].
On May 11, 2012, Williky, working with Mr.
Pasfield, provided the FBI with a hard drive of data as
part of his whistleblowing activities. [Doc. 48-24].

10
On June 5, 2012, Williky, working with Mr.
Pasfield, provided the FBI with a DVD of additional
data as part of his whistleblowing activities. [Doc. 4825].
On or about July 5, 2012, Williky filed a Qui Tam
Complaint in the United States District Court,
Northern District of Texas, Fort Worth Division, Case
No. 4-12CV-472 Y.
On July 26, 2012, Williky, working with Mr.
Pasfield, provided the FBI with yet another DVD of
additional data as part of his whistleblowing activities.
[Doc. 48-26].
Williky continued to cooperate with the SEC
throughout 2012 and 2013. [Doc. 48-27; see also
Doc. 64].
On August 31, 2012, Williky amended his Qui Tam
action to a fictitious name under fear for his life. At
that time, Williky was also under FBI protective
surveillance in fear of Furando’s mafia connections.
[Doc. 48-30; Doc. 48-31; Doc. 48-32].
During the time Williky was providing information
to the various governmental agencies, he was not, to
his knowledge or the knowledge of his whistleblower
counsel, under investigation or subject to any civil or
criminal proceedings. [Doc. 48-18].
At least partially as a result of Williky’s trove of
information, on May 24, 2012, Congress held a hearing
on the issue and raided the CIMA Green LLC offices.

11
On September 19, 2013, Jeffrey T. Wilson4, Craig
Ducey, Chad Ducey, Brian Carmichael, Joseph
Furando, Evelyn Pattison, Caravan Trading LLC,
CIMA Green LLC, CIMA Energy Group and Imperial
Petroleum were indicted in what was referred to as
“the largest instance of tax and securities fraud in
[Indiana] state history.”5 The court even mentioned
Williky’s information, citing to a “collection of emails,
documents and testimony from other Imperial
employees” that supported the jury’s verdict.6 The DOJ
used Williky’s documents during Wilson’s trial. See,
e.g., Transcript of Wilson Trial, Vol. 3, pgs. 545—547.
[Doc. 48-35].

4

U.S. v. Wilson, Cause No. 1:13-cr-00190-SEB-TAB. Wilson was
found guilty on July 20, 2015 and was sentenced to 120 months in
prison with a $16,468,769.73 restitution award.
5

United States of America vs Craig Ducey, Chad Ducey, Chris
Ducey, Joseph Furando, Evelyn Katirina Pattison a/k/a Katirina
Tracy, E-Biofuels, LLC, Caravan Trading Company, LLC, Cima
Green, LLC, Case 1:13-cr-00189-SEB-TAB United States District
Court Southern District of Indiana Indianapolis Division (filed and
indicted on September 17, 2013).
6

Https://www.law360.com/articles/1001622/print?section=
Environmental

12
E. Specific examples that Williky’s evidence was
valuable and was used by the governmental
agencies.7
i. The Furando/Ryer Tape was used in the
indictments.
Perhaps the most important piece of evidence that
Williky supplied to the United States during the March
13, 2012 Proffer was the tape of Joseph Furnando, in
his own words, describing the Imperial scheme to John
Ryer, the new named CEO of Imperial. Williky told the
various agencies about the tape during the proffer and
then provided his attorney with the recording on or
about March 14, 2012 for production to the
government. Here is an excerpt of that conversation:
John: Ok. But its feedstock, that’s what we
consider feedstock.
Joe: You can consider it what you want.
John: Okay.
Joe: The world considers it fuel.
John: M’k.
Joe: Fully processed. RIN – taken. Dollar –
taken. K. you also get feedstock This feedstock—
John: That’s the soy.
Joe: That’s the soy. K? This is fuel. B99. RINless.

7

Doc. 64-1.

13
John: RIN-less. Okay.
Joe: Mm-hmm. This B99 RIN-less goes back to
e-Bio…
John: Right.
Joe: Where…
John: We mix it or do something to it.
Joe: You don’t do anything to it. What you do is
you take it…
John: Filter it.
Joe: You do nothing to it.
John: We don’t?
Joe: No.
John: Okay. I just dunn..So why haven’t I been
told?
Joe: Okay. *sigh* Okay.
John: *laughs*
Joe: We can play games
John: No, but I’m telling you tha-, I’m telling you
– I have not been told yet.
Joe: Okay, you do nothing to it and it passes
through, so there’s a dollar on the RIN here,
John: Right.

14
Joe: There’s a dollar on the RIN here and it goes
from being whoever made it to now being the
property of e-Bio. Where there’s an e-Bio RIN
and then e-Bio gets the dollar or if you save, sell
it as B100, somebody else takes the dollar. So
right now, all you’re doing is creating RINs
John: But if it’s B99, somethin’ has to be done to
it to make it B100, am I wrong or wrong?
Joe: Nothing is done to the fuel. Nothing.
This “smoking gun” tape, provided to multiple
governmental agencies by Williky prior to his
knowledge that any governmental agency was
investigating Imperial and provided three years before
any claims were brought against him, was then used in
the September 17, 2013 Indictment of Craig Ducey,
Chad Ducey, Chris Ducey, Joseph Furando,8 Katirina
Tracy, Brian Carmichael, E-Biofuels, Caravan Trading
Company, and CIMA Green by being specifically
mentioned as “Overt Act 24.” For example, the
Carmichael information says, “On or about November
17, 2011, Furando and TRACY met with PERSON 5,
explained the operation of the conspiracy to PERSON
5 and recruited PERSON 5 as a new member of the
conspiracy.” (This same “Overt Act 24” is in the
Furando information. [Doc. 64-9]. That is specifically

8

For brevity, if we just look at the conviction of Furando alone, it
resulted in a voluntary forfeiture of approximately $153,678,355.00
in cash as well as art, jewelry, Orange County Choppers
motorcycles, a Ferrari, real property and other items. See Case No.
1:13-cr-00189-SEB-TAB, Doc. 423.

15
referencing the Furando/Ryer tape. [Docs. 64-1, 64-9
and 64-10].
ii. Evidence produced by Williky was used in
the Wilson Indictment and Trial and helped
result in guilty pleas for six other
Defendants.
In addition to the “smoking gun” tape mentioned
above, the government used thirty-six (36) documents
provided by Williky in its trial against Jeffrey Wilson,
Cause No. 1:13-cr-190-SEB-TAB-1, styled United States
of American v. Jeffrey Wilson. Specifically, Exhibits 23,
41, 46, 48, 49, 51, 52-55, 57-60, 63, 65-72, 81 – 84, 8689, 92-95, 105-106 were provided by Williky in 2012
during his productions to the government. [Doc. 64-1].
That same evidence was also used in the Wilson
Indictment. [Doc. 64-1].
On January 31, 2014, Williky submitted an SEC
form TCR related to his March 13, 2012 Proffer.
[Doc. 48-33].
A year later, in April and May 2015, at least
partially as a result of Williky’s information, the
defendants pled or were found guilty in the $145
million biodiesel fraud. Furando pled guilty on April
17, 2015 and was sentenced to 240 months in prison.
Craig Ducey pled guilty on April 20, 2015 and was
sentenced to 74 months in prison. Chad Ducey pled
guilty on April 28, 2015 and was sentenced to 84
months in prison. Chris Ducey pled guilty on April 22,
2015 and was sentenced to 72 months in prison. Evelyn
Pattison pled guilty on July 18, 2014 and was
sentenced to three years probation. Carmichael was

16
sentenced to 151 months in prison. The three Ducey
brothers, Furando, Pattison, and the entities, eBiofuels, LLC, Caravan Trading Company and CIMA
Green, LLC, were all ordered to pay restitution of
$56,135,811.00.
F. The SEC Sues Williky.
On March 2, 2015, three years after providing
whistleblower information to multiple governmental
agencies, including the SEC, the SEC brought suit
against Williky, seeking disgorgement, among other
things.
On August 10, 2015, prior to anything occurring in
his case, including Williky filing an answer, the SEC
and Williky’s attorney, Robert Webster, negotiated a
settlement of $1,100,000.00 [$747,577.89
(disgorgement) + $108,927.89 (prejudgment interest) +
$243,494.22 (penalty)]. [Doc 48-34].
On August 26, 2015, the Court administratively
closed the SEC suit against Williky pending the
resolution of the criminal actions against the Ducey
brothers, Wilson and others. [Doc. 8]. No criminal
claims were brought against Williky. At the time the
case was administratively closed, the case was in its
infancy with a negotiated settlement that merely
needed final paperwork.
On September 18, 2015, Williky’s attorney, Webster,
was injured in a horrific hunting accident, resulting in
the loss of portions of his hand. [Doc. 48-38]. Webster
was in and out of hospitals and surgeries from
September 18, 2015 – early April 2016. Id. As a result,
Williky was left without legal counsel, but believed that

17
he had an all-but-done settlement with the SEC that
would be inked once the case was reopened and his
lawyer healed.
On August 31, 2016, the SEC informed Williky’s
counsel, Webster, that they intended to reopen the case
and had added a stiff civil penalty and additional
disgorgement to their settlement offer—with the new
final settlement offer being $1,961,980.96. [Doc. 48-36].
Nothing had changed in the case to warrant the
additional settlement demand.
From August 26, 2015 – the August 2016 contact by
the SEC, the case remained dormant and Williky was
without legal counsel.
On January 19, 2017 the case was reopened.
[Doc. 15].
Williky answered on February 21, 2017 as a pro se
defendant. [Doc. 19]. In fact, Williky was without
counsel from February 21, 2017 thorough October 16,
2017, when his current counsel, David Clouston was
admitted pro hac vice. [Doc. 37].
On March 24, 2017, Williky reached out to the SEC
about finalizing the previously negotiated settlement.
[Doc. 48-37].
During the renewed settlement discussions in
March - October 2017, the SEC referenced that
prejudgment interest calculations would be higher but
did not mention any other requested sums (such as the
brand-new request for disgorgement and interest of
Williky’s severance found in the SEC’s November brief
[Doc. 39]). Cf. Doc. 48-39, pg. 1-2 with Doc. 39, pg. 10,

18
13. At the time, the SEC was aware Williky was
without counsel.
On October 3, 2017, Williky entered into a
bifurcated settlement with the SEC based on the
negotiations conducted in August 2015 and finalized in
August 2016. [Doc 34]. At the time Williky began
discussing inking the settlement, he was without
counsel. His conversations with the SEC mainly
centered around a dispute as to whether he would
agree to the August 2016 demand of $1.9 million as
opposed to the original August 2015 settlement of $1.1
million. The SEC told Williky that based on the
disagreement, they could enter into a bifurcated
settlement with the monetary relief to be determined
by the Court and that the Court would usually “pick a
number in the middle.” Williky contacted his current
counsel, David Clouston, at the tail end of the
discussion. However, the paperwork, done in reliance
of the August 2016 numbers and the SEC’s
representations regarding the Court’s penchant for
splitting the difference as a result of a bifurcated
settlement, was all but done before Williky was even
represented by counsel.
On November 6, 2017, the SEC filed its Brief in
Support of Its Motion for Injunctions, Disgorgement,
Civil Penalties, and Entry of Final Judgment Against
Defendant Williky. [Doc. 39]. In it, for the first time,
the SEC requested disgorgement, penalties and
interest of $4,923,916—an eye-popping $2,961,935.04
more than what was discussed when Williky was
determining whether to agree to the bifurcated
settlement. The Brief added a never-before-requested

19
disgorgement of Williky’s severance ($1,237,500.00)
from Imperial and added significant interest between
the time of the original negotiations in August 2016
and the execution of the bifurcated settlement—even
though the execution of the settlement was delayed due
to the Court closing the case and Williky’s attorney’s
tragic accident. The SEC did not assert any causes of
action or claims for disgorgement of the severance and
had never before asserted a claim for those funds. The
SEC’s mushrooming settlement changes were as
follows:

20
Category

August
10, 2015

August 31,
2016
Settlement Settlement
Change
$683,948.8 $810,714.00
9

Insider
Trading
Disgorgement
Civil penalty $135,645.5
9
Insider
$58,624.52
Trading PJI
Scalping
$63,629.00
Disgorgement
Scalping
$63,629.00
Penalty

Scalping PJI
Wash Trading
Penalty
13D First Tier
penalty
Employment
Severance
disgorgement
Employment
Severance PJI
Total

November
6, 2017
Brief
Request
$798,217.00

$810,714.00 $2,394,651.
00
$115,167.30 $159,110.13
$63,629.00

$65,617.00

$63,629.00

$7,023.00 $10,627.66
$80,000.00 $80,000.00

Requests
Court
determinati
on
$14,866.97
$0

$7,500.00

$7,500.00

$0

$0

$0

$1,237,500.
00
$253,953.94

$1,100,000 $1,961,980. $4,923,916.
.00
96
00

21
Ultimately, the Trial Court ruled against the SEC
on the newly-asserted employment severance request,
but ruled in favor of the SEC on the disgorgement for
insider trading, scalping and interest. The Trial Court
awarded a 2x civil penalty related to the insider
trading claim, referencing Williky’s whistleblower
activities as “of limited value.” [Doc. 67].
STATEMENT OF ARGUMENT
A review of the appropriateness of a civil penalty for
insider trading appears to be a matter of first
impression in the Seventh Circuit. Other Circuits have
held that the standard is abuse of discretion. S.E.C. v.
Happ, 392 F.3d 12, 32 (1st Cir. 2004); S.E.C. v.
Rajaratnam, 918 F.3d 36, 41 (2d Cir. 2019) (“We review
[the trial court’s] decision on … the appropriateness of
the district court’s selection of a civil penalty, for abuse
of discretion”). Under the abuse of discretion standard,
“[a]buse occurs when a material factor deserving
significant weight is ignored, when an improper factor
is relied upon, or when all proper and no improper
factors are assessed, but the court makes a serious
mistake in weighing them.” S.E.C. v. Sargent, 329 F.3d
34, 38 (1st Cir. 2003).
Williky respectfully asserts that the Trial Court
abused its discretion in awarding a 2x civil penalty by
either ignoring a material fact deserving significant
weight or making a serious mistake in weighing the
fact–namely his status as a cooperating whistleblower
whose document productions (made before he was sued
by the SEC) resulted in six guilty pleas and one guilty
trial verdict.

22
In 2017, Bridget Fitzpatrick, then Acting Co-Chief
Litigation Counsel of the SEC, now Chief Litigation
Counsel with oversight over the national litigation
program for the SEC, spoke about the SEC’s
cooperation initiatives, noting that the SEC takes such
initiatives very seriously and wants to encourage
people to cooperate “early, frequently, and strongly.”9
She mentioned that the availability of cooperators has
allowed the SEC to bring cases faster, and the SEC
uses cooperators both at trial as well as via affidavit in
support of efforts to seek injunctive relief or asset
freezes. She commented that the benefits available to
cooperators depend on the specific case at hand, and
could include the SEC recommending against charges
or recommending only non-scienter-based charges,
reducing penalties or assessing no penalties at all. In
cases with cooperators, the SEC “generally favors”
bifurcated settlements by which liability is established,
but a decision as to remedies is pushed to a later date
to allow the SEC to effectively assess the value of the
cooperation. According to Ms. Fitzpatrick, a substantial
percentage of bifurcated agreements result in the SEC
recommending that no penalty be imposed. Ms.
Fitzpatrick recommended that attorneys representing
persons or entities being investigated by the SEC
evaluate the potential for cooperation early in the
process, and that respondents be prepared to honor
their cooperation agreements.
Mr. Williky cooperated “early, frequently, and
strongly.” He approached the EPA with the original
(skimming) fraud he thought he had detected and then
9

https://www.vedderprice.com/highlights-from-sec-speaks-2017

23
sought whistleblower counsel to help him disclose the
true fraud to the appropriate governmental agencies
within three days of reading the Furando/Ryer
transcript. Despite being threatened physically by
Furando and with legal action by Wilson, Williky
provided testimony and produced hard drives and discs
of thousands of documents to the government before
any cases were filed or persons were indicted. Judging
by the timeline, the fact that the FBI filed indictments
so soon after Williky’s document production indicates
that his information was helpful in indicting, and later
convicting, the seven individuals responsible for the
fraud.
The Trial Court’s decision to award 2x civil
penalties ignores or mistakenly underweighs a
material factor deserving significant weight—Williky’s
cooperation—and chills future whistleblowers.
Against the great weight of case law, and in
juxtapose to what had been discussed, the SEC sought
disgorgement, penalties and other sums beyond what
was discussed or negotiated during the course of the
settlement discussions or agreement. It is concerning
that the Trial Court’s award is referenced as evidence
of a lack of predictability for settling defendants.
§ 8:2.Civil penalty—Primary liability, 18 Insider
Trading Regulation, Enforcement and Prevention § 8:2.
At present, it is safe to say that there is no
predictability regarding judicial imposition of
the civil penalty: It is very much affected by the
attitude of the judge both to the individual
defendant and to the nature of his conduct, and

24
to the defendant's financial situation at the time
of the judgment.
Id.
The Trial Court’s award of 2x the disgorgement
amount for the “insider trading” penalties ignored
Williky’s cooperation with multiple governmental
agencies as well as his whistleblowing activities.
In determining what a civil penalty should be, the
court should consider the following (1) the seriousness
of the violations; (2) the defendant’s scienter; (3) the
repeated nature of the violations; (4) whether the
defendant admitted wrongdoing; (5) the losses or risk
of losses caused by the conduct; (6) any cooperation
provided to enforcement authority; and (7) ability to
pay. S.E.C. v. Zenergy Int’l, Inc., Cause No. 13-CV5511, 2016 WL 5080423 (N.D. Ill. Sept. 20, 2016). To
determine the appropriate amount of any such penalty,
a court must consider the “facts and circumstances” of
the particular case. 15 U.S.C. §§77t(d)(2), 78u(d)(3).
The Trial Court’s award of 2x penalties ignored the
great weight of case law in dealing with cooperating
and settling defendants. Courts assessing penalties in
bifurcated settlements typically either do not assert a
penalty at all or assert a penalty equaling the gross
amount of the gain, even when the conduct is
egregious. See, e.g. S.E.C. v. Bluestein, No. 09-13809,
2013 WL 1759091, at * 5 (E.D. Mich. March 7, 2013)
(assessing no civil penalty); Zenergy Int’l, Inc., 2016 WL
5080423, at *6-7 (ruling that the settling defendants
should disgorge the amount of profit plus prejudgment
interest plus a penalty equal to the gross amount of the

25
gain); S.E.C. v. Universal Express, Inc., 646 F.Supp.2d
552 (S.D.N.Y. 2009) (ruling that the settling defendants
should pay penalties of 1/9th and 1/12th of the
disgorgement amounts); S.E.C. v. Sample, Civ. A. No.
3:14-CV-1218-B, 2017 WL 5569873, at * 3 (N.D. Tex.
Nov. 11, 2017) (ruing that the settling defendants’ civil
penalty should be equal to the disgorgement amount);
S.E.C. v. Esposito, Case No. 8:08-cv-494-T-26EAJ, 2011
WL 13186000, at *7 (M.D. Fla. June 24, 2011) (ruling
that the two settling defendants should pay penalties
equal to their gross pecuniary gains). And, none of the
courts enforcing these penalties dealt with cooperating,
whistleblowing defendants—which would merit even
less of a civil penalty. See, id. In fact, Counsel was
unable to find a case wherein any civil penalty was
assessed against a defendant who established he was
a whistleblower and cooperator.
Courts, even when a defendant takes the case all
the way to trial, generally impose no more than one
times the alleged illegal profit made. See, e.g., S.E.C. v.
Johnson, 174 F. App’x 111 (3d Cir. 2006) (awarding one
times the insider trading profits made after trial on the
merits); S.E.C. v. Koenig, 557 F.3d 736, 744 (7th Cir.
2009) (imposing one times the bonus plus prejudgment
interest after a trial on the merits); S.E.C. v. Gunn,
2010 WL 3359465, at * 11 (N. D. Tex. Aug. 25, 2010)
(assessing $50,000 civil penalty under 15 U.S.C. § 781(a)(2) related to $108,587.87 disgorgement against the
noncooperating non-whistleblowing defendant); S.E.C.
v. Berrettini, 218 F.Supp.3d 754, 764-65 (N.D. Ill. 2016)
(assessing 1x penalties under 15 U.S.C. § 78-1(a)(2)
equal to the disgorgement assessment against the
noncooperating and non-whistleblowing defendants);

26
S.E.C. v. Conradt, 696 F. App’x 46, 48 (2d Cir. 2017)
(imposing only a 1x penalty under 15 U.S.C. § 781 (a )(2) against an initially coopera t i ng
witness/defendant who later became an uncooperative
witness at trial); S.E.C. v. Softpoint, Inc., 958 F. Supp.
846, 868 (S.D.N.Y. 1997), aff'd, 159 F.3d 1348 (2d Cir.
1998) (district court reduced a default judgment order
assessing a 3x penalty under 15 U.S.C. § 78-1(a)(2) to
less than a 1x penalty); cf. S.E.C. v. Alanar, Civ. A. No.
2008 U.S. Dist. LEXIS 37241, at * 7 (S.D. Ind. May 6,
2008) (awarding more against noncooperating
defendants, but, noticeably, ordering $2,862,191
disgorgement against the only (non-whistleblowing)
cooperating defendant, Vaughn Reeves, but only
assessing a $120,000 penalty).
The cases imposing the maximum 3x penalty are all
distinguishable from the present situation in that they
were all jury trials where the defendant never admitted
fault and never cooperated—wholly different from
Williky’s situation. S.E.C. v. Lipson, 278 F.3d 656, 664
(7th Cir. 2002) (imposing the maximum penalty after
the jury verdict because the defendants’ refusal to
accept punishment “argues that he was likely to repeat
his crimes”); S.E.C. v. Maio, 51 F.3d 623 (7th Cir. 1995)
(imposing the maximum penalty after bench trial). In
SEC v. Ferrero, the SEC argued that the three times
penalty was warranted because the defendants lied
repeatedly, forcing the SEC to spend considerable
funds and time to disprove the defendants’ fabrications.
S.E.C. v. Ferrero, No. IP 91 271 C, 1993 WL 625964, at
* 18 (S.D. Ind. Nov. 15, 1993), aff’d sub nom. S.E.C. v.
Maio, 51 F.3d 623 (7th Cir. 1995). In that same action,
the SEC agreed to the imposition of a one times profits

27
penalty for the one defendant who agreed to a
settlement. Id.
It is reasonable to either reduce or decline to impose
a civil penalty when dealing with a cooperating
defendant because “cooperation is important to the
investigation, prosecution and punishment of frauds of
this kind, and should be rewarded.” S.E.C. v.
Opulentica, LLC, 479 F. Supp. 2d 319, 332 (S.D.N.Y.
2007) (assessing a civil penalty against the cooperating
defendant of only ½ disgorgement amount).
Dawoud, fully acknowledging his accountability
for the fraud, does not object to the propriety of
a civil penalty, but submits to the Court that his
“involvement and conduct should result in a
minimal first-tier penalty” . . . [Dawoud] has
demonstrated meaningful contrition by his
prompt and significant cooperation in the
criminal investigation conducted by the U.S.
Attorney’s Office. At least one other court in this
district, faced with similar facts, declined to
impose a civil penalty, reasoning that “[s]uch
cooperation is important to the investigation,
prosecution and punishment of frauds of this
kind, and should be rewarded.” Inorganic
Recycling Corp., 2002 U.S. Dist. LEXIS 15817,
2002 WL 1968341, at *5.
Id.
Further, there is no legal justification for only
rewarding cooperation if made to one specific
governmental agency, such as the SEC impliedly

28
argued to the Trial Court.10 Regardless of the accuracy
of the SEC’s statement regarding the SEC’s
participation in Williky’s proffer of evidence (provided
to two U.S. Attorneys, two Trial Attorneys for the
Environmental Crime Section of the U.S. DOJ, a
Special Agent for the IRS, a Special Agent for the FBI,
and a special agent for the U.S. EPA Criminal
Investigation Division), the determination of whether
a defendant’s cooperation merits a reduction of civil
penalties is not limited to cooperation “credit” solely to
governmental agency that later asserts claims against
the defendant. See e.g, S.E.C. v. Opulentica, LLC, 479
F. Supp. 2d 319, 332 (S.D.N.Y. 2007) (reducing civil
penalty because the cooperating defendant cooperated
with the DOJ). Like in Opulentica, this Court should be
able to review the defendant’s cooperation with any
governmental agency because such cooperation is

10

The SEC asserted that Williky’s cooperation was of no help to
the SEC. The SEC stated that it did not participate in the proffer
wherein Williky presented much of the information later used by
the FBI to prosecute and incarcerate Defendants Jeffrey T. Wilson,
Craig Ducey, Chad Ducey, Brian Carmichael, and Joseph Furando.
The SEC admitted, however, that it did obtain copies of the proffer
and the documents provided by Williky by at least May 3,
2012—which was still one year before the FBI’s indictments of
Jeffrey T. Wilson, Craig Ducey, Chad Ducey, Brian Carmichael,
and Joseph Furando and sixteen months before the SEC brought
claims against Imperial, Jeffrey T. Wilson, Craig Ducey, Chad
Ducey, Brian Carmichael, Joseph Furando, Caravan Trading LLC,
Cima Green LLC, and CIMA Energy Group.
https://www.sec.gov/litigation/litreleases/2013/lr22800.htm. And,
to the extent that the Court relied on the SEC’s somewhat
misleading statements to devalue Williky’s cooperation—which
was clearly used by the SEC to build its case—such reliance clearly
ignored or underweighted a material fact, necessitating reversal.

29
beneficial to the entirety of the government and, in
theory at least, should result in a benefit for all
governmental agencies—including the agency later
seeking disgorgement and/or penalties.
Williky provided concrete evidence, including tapes
and recordings which only he had, that were directly
used in the indictment, prosecution and conviction of
the defendants. This far surpassed any “modest value”
determination and Williky requests that Court reverse
the Seventh Circuit’s affirmation of the Trial Court’s
award and that his conduct instead be compared to the
cooperating defendant in Opulentica. Further,
“Cooperation is important to the investigation,
prosecution and punishment of frauds … and should be
rewarded.” S.E.C. v. Opulentica, LLC, 479 F. Supp. 2d
319, 332 (S.D.N.Y. 2007) (assessing a civil penalty
against the cooperating defendant of only ½
disgorgement amount). Like in Opulentica, the trial
court should have reviewed Williky’s cooperation with
the various governmental agencies (even if Williky did
not go straight to the SEC first) because such
cooperation is beneficial to the entirety of the
government and, in theory at least, should result in a
benefit for all governmental agencies.
In this case, without any supporting evidence, the
Seventh Circuit made the blanket statement that “the
SEC has undoubtably spent significant resources in
litigating the matter against Williky.” [Opinion at 394].
However, the SEC spent little to no funds to prosecute
Williky. Williky negotiated a settlement before he even
answered and, but for the SEC closing the case and his
attorney’s horrific accident, would currently be done

30
paying that settlement. Williky entered into a
bifurcated settlement soon after the case was reopened,
admitted wrongdoing and cooperated early, frequently,
and strongly with the FBI as well as other
governmental agencies (was, in fact, a whistleblower).
Imposing the maximum penalty on a cooperator would
chill future whistleblowers and cooperators and
completely thwart the government’s stated purpose to
encourage cooperation with the government. Rather,
courts when awarding civil penalties on a bifurcated
settlement tend to award substantially under even the
first-tier penalties. See S.E.C. v. Hayter, 96 F. Supp. 3d
1299, 1304–05 (M.D. Fla. 2015).
Additionally, the allegedly near-simultaneous
tipping by Williky and Cheperko does not devalue
Williky’s contribution. The SEC provided the Trial
Court with no evidence that Cheperko provided the
“smoking gun” tape, the numerous exhibits used at
trial or the depth of documents Williky provided to the
various governmental agencies. Thus, the Trial Court’s
decision to ignore the treasure trove of evidence
provided by Williky, and clearly used by the criminal
court, on the unsubstantiated statement by Hlavacek
that Williky was not valuable was an abuse of
discretion. (Even if the SEC had established that
Cheperko provided it with the significant
documentation provided by Williky, there is certainly
no rule that only one cooperating witness can be
helpful.)
For the stated reasons, including Williky’s
whistleblowing, early and frequent cooperation and
admission of wrongdoing, Williky asserts that that the

31
Seventh Circuit’s affirmation of the Trial Court’s award
of 2x penalty be reversed and that no penalty or a
penalty be imposed of no more than one times the
amount of his profit for trading between November
2011 through February 2012——$302,852.00.
THE SEVENTH CIRCUIT’S OPINION
Petitioner appealed to the Seventh Circuit, arguing
that the Trial Court abused its discretion in awarding
a 2x civil penalty because it failed to adequately take
into account the value and weight of Williky’s
cooperation with multiple governmental agencies.
REASONS FOR GRANTING THE PETITION
This case is a strong vehicle for resolving an
important and significant question of the method in
which to determine relevant “facts and circumstances”
that a Trial Court should take into account when
determining a civil penalty pursuant to 15 U.S.C.
§ 78u-1(a)(2). In particular, the Seventh Circuit noted
the relevancy of the case law factors to determine a
civil penalty under S.E.C. v. Zenergy Int’l, Inc., Cause
No. 13-CV-5511, 2016 WL 5080423 (N.D. Ill. Sept. 20,
2016) and S.E.C. v. Custable, 1996 WL 745372, at * 2-5
(N.D. Ill. Dec. 26, 1996), aff’d, 132 F.3d 36 (7th Cir.
1997), but then appeared to disregard those factors
entirely. “These factors are certainly relevant, but we
should also point out that the civil penalty for insider
trading comes from its own independent statutory
provision . . .’. [Opinion at 393]. “In this light, Williky’s
focus on the nobility of his whistleblowing endeavors
misses the mark since the civil penalty’s main design
is to deter insider trading, not to encourage

32
whistleblowing and cooperation after the fact.”
[Opinion at 393].
Further, this case is a strong vehicle for
determining the effect of simultaneous whistle-blowing
activities by numerous individuals and value of a
whistleblower’s knowledge and cooperation and of
considerations due to a bifurcated settlement when the
SEC procures such a settlement through implication
that certain values will not be sought and then
subsequently and aggressively pursued significant civil
penalties.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Bryan C. Shartle
Counsel of Record
SESSIONS, FISHMAN, NATHAN & ISRAEL, L.L.C.
3850 North Causeway Blvd., Suite 200
Metairie, Louisiana 70002-7227
Telephone: 504-828-3700
Facsimile: 504-828-3737
bshartle@sessions.legal
Counsel for Petitioner Gary Williky
Dated:

February 6, 2020

